No.

IN THE SUPREME COURT OF THE UNITED STATES

 

OCTOBER TERM, 2021

CASEY RAY CULP,
Petitioner,
Vv.
UNITED STATES OF AMERICA,

Respondent.

 

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), | certify that the Petition for Writ of Certiorari

contains 2,692 words, excluding the parts of the document that are exempted by the Supreme Court

Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

EXECUTED on the 22nd day of September, 2021.

ANTHONY R. GALLAGHER

Federal Defender for the District of Montana
*RACHEL JULAGAY
Assistant Federal Defender
Federal Defenders of Montana
104 Second Street South. Suite 301
Great Falls, MT 59401
Telephone: (406) 727-5328
Fax: (406) 727-4329
*Counsel of Petitioner

 

 
